                      CLOSEOUT OF M-91060026



On July 6, 1990, the Office of Inspector General received a
communication from the Federal Bureau of Investigation (FBI) for
OIG information. This communication described an FBI incruirv that
                                                             A

originated from the                                            This
document, dated April-1990,      described alleqations bf &r£    nd
corrupt practices aqainst the                                       --
(the subject) made by                 - (the complainant), a former
                 L                     - -         The allegations
against      stemmed from a declined proposal submitted by the
complainan< to NSF in 1979. The complainant made a variety of
serious allegations against many 0ther:Federal and state officials,
as well as faculty and officials                        On June 23,
1987, Assistant U.S. Attorney
                                           , reviewed the facts of
this case and advised that it was her legal opinion that no fraud
against the government had ever occurred concerning t h e and the
complainant's allegations and she therefore would decline
prosecution in this matter. As a result of their inquiry, the FBI
determined it would not conduct an investigation. This matter is
now closed.




&es    ~.&w&enik,  Ph.D.                   L. Sunshine
Assistant Inspector General         Counsel to Inspector General
   for Oversight
